<html>
<title> - BOLSTERING THE GOVERNMENT'S CYBERSECURITY: LESSONS LEARNED FROM WANNACRY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





               BOLSTERING THE GOVERNMENT'S CYBERSECURITY:
                     LESSONS LEARNED FROM WANNACRY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON OVERSIGHT &
                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 15, 2017

                               __________

                           Serial No. 115-17

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








       Available via the World Wide Web: http://science.house.gov
       
       
       
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-234PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
     
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                                 ------                                

                       Subcommittee on Oversight

                   HON. DRAIN LaHOOD, Illinois, Chair
BILL POSEY, Florida                  DONALD S. BEYER, Jr., Virginia, 
THOMAS MASSIE, Kentucky                  Ranking Member
GARY PALMER, Alabama                 JERRY MCNERNEY, California
ROGER W. MARSHALL, Kansas            ED PERLMUTTER, Colorado
CLAY HIGGINS, Louisiana              EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas






















                            C O N T E N T S

                             June 15, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Darin LaHood, Chairman, Subcommittee 
  on Oversight, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Donald S. Beyer, Jr., Ranking Member, 
  Subcommittee on Oversight, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Ralph Abraham, Vice Chairman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    14

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    16
    Written Statement............................................    18

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    20
    Written Statement............................................    22

                               Witnesses:

Mr. Salim Neino, Chief Executive Officer, Kryptos Logic
    Oral Statement...............................................    24
    Written Statement............................................    28

Dr. Charles H. Romine, Director, Information Technology 
  Laboratory, National Institute of Standards and Technology
    Oral Statement...............................................    33
    Written Statement............................................    35

Mr. Gregory J. Touhill, CISSP, CISM; Brigadier General, USAF 
  (ret); Adjunct Professor, Cybersecurity & Risk Management, 
  Carnegie Mellon University, Heinz College
    Oral Statement...............................................    44
    Written Statement............................................    46

Dr. Hugh Thompson, Chief Technology Officer, Symantec
    Oral Statement...............................................    54
    Written Statement............................................    56

Discussion.......................................................    64

             Appendix I: Answers to Post-Hearing Questions

Dr. Charles H. Romine, Director, Information Technology 
  Laboratory, National Institute of Standards and Technology.....    82

Mr. Gregory J. Touhill, CISSP, CISM; Brigadier General, USAF 
  (ret); Adjunct Professor, Cybersecurity & Risk Management, 
  Carnegie Mellon University, Heinz College......................    84

Dr. Hugh Thompson, Chief Technology Officer, Symantec............    87

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    90
 
               BOLSTERING THE GOVERNMENT'S CYBERSECURITY:

                     LESSONS LEARNED FROM WANNACRY

                              ----------                              


                        Thursday, June 15, 2017

                  House of Representatives,
                      Subcommittee on Oversight and
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Darin 
LaHood [Chairman of the Subcommittee on Oversight] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman LaHood. The Subcommittee on Oversight and the 
Subcommittee on Research and Technology will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the Subcommittee at any time.
    Good morning, and welcome to today's hearing titled 
``Bolstering the Government's Cybersecurity: Lessons Learned 
from WannaCry.'' I recognize myself for five minutes for an 
opening statement.
    I want to welcome the witnesses here today, and I would 
also welcome Chairman Smith, Oversight Subcommittee Ranking 
Member Beyer, Research and Technology Subcommittee Vice 
Chairman Abraham, Research and Technology Ranking Member 
Lipinski, Members of the Subcommittees, our expert witnesses, 
and members of the audience.
    Cybersecurity--a concept we hear mentioned frequently, 
especially in this period of rapidly emerging threats--is an 
ever-evolving concept. Maintaining an effective cybersecurity 
posture requires constant vigilance as new threats emerge and 
old ones return. Too often, however, when we hear about the 
importance of cybersecurity, we are left without concrete steps 
to take to ensure our systems are best positioned to defend 
against emerging threats.
    One of the goals of today's hearing is to learn about real, 
tangible measures the government can take to ensure its IT 
security systems are appropriately reinforced to defend against 
new and emerging threats, including novel and sophisticated 
ransomware threats.
    The specific focus of today's hearing will be the recent 
WannaCry ransomware attack, a new type of ransomware infection, 
which affected over one million unique systems last month in a 
worldwide attack that impacted nearly every country in the 
world.
    Although the concept of ransomware is not new, the type of 
ransomware employed by WannaCry was novel. WannaCry worked by 
encrypting documents on a computer, instructing victims to pay 
$300 in Bitcoin in order to regain access to their user's 
documents. Unlike typical forms of ransomware, however, 
WannaCry signaled the ushering in of a new type of worming 
ransomware, which caused the attack to spread faster and more 
rapidly with each new infection.
    In light of the novelty built into WannaCry's method of 
attack, cybersecurity experts, including those we will hear 
from today, have expressed significant concerns that WannaCry 
is only a preview of a more sophisticated ransomware infection 
that many believe will inevitably be launched by hackers in the 
near future.
    Beginning May 12, 2017, the WannaCry ransomware infection 
moved rapidly across Asia and Europe, eventually hitting the 
United States. The attack infected 7,000 computers in the first 
hour and 110,000 distinct IP addresses in 2 days and in almost 
100 countries, including the U.K., Russia, China, Ukraine, and 
India. Experts now believe WannaCry affected approximately 1 to 
2 million unique systems worldwide prior to activating the kill 
switch.
    In Illinois, my home state, Cook County's IT systems were 
compromised by WannaCry, reportedly one of a few local 
governments subject to the attack. Although Cook County has 
worked to appropriately patch their systems, it is important 
that we ensure that all vulnerabilities are appropriately 
remedied in the event of a more sophisticated attack.
    Fortunately, the hackers responsible for WannaCry 
mistakenly included a kill switch, which was uncovered by an 
employee of Kryptos Logic and used to terminate the attack. The 
Kryptos Logic employee exploited a key mistake made by the 
hackers when he registered the domain connected to the 
ransomware attack. Experts estimate that the kill switch 
prevented 10 to 15 million unique worldwide system infections 
and reinfections.
    Although based on information available thus far the 
federal government's systems were fortunately spared from 
WannaCry, we want to ensure that the government is sufficiently 
prepared in the likely event of a more sophisticated attack.
    Additionally, the Committee wants to hear what Congress can 
do to appropriately address this Committee--I'm sorry--this 
climate of new and improving cybersecurity threats.
    Through the lens of the aftermath of WannaCry, today's 
witnesses will help shed light on key steps the government 
should take to ensure its systems are protected. We will also 
hear today about how public-private partnerships are an 
instrumental tool to help bolster the government's 
cybersecurity posture. Finally, we will learn about how the 
President's recent cybersecurity order, which makes NIST's 
cybersecurity framework mandatory on the Executive Branch, is a 
significant step toward ensuring the federal government's 
cybersecurity posture incorporates the most innovative security 
measures to defend against evolving threats.
    It is my hope that our discussions here today will 
highlight areas where improvement is necessary, while offering 
recommendations as we move forward to ensure the federal 
government is prepared to respond to emerging cybersecurity 
threats. I look forward to hearing from our distinguished 
witnesses.
    [The prepared statement of Chairman LaHood follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman LaHood. I now recognize the Ranking Member of the 
Oversight Subcommittee, Mr. Beyer, for an opening statement.
    Mr. Beyer. Thank you very much, Mr. Chairman. I'd like to 
thank you and Chairman Comstock for holding this hearing.
    Cybersecurity should be a chief concern for every 
government, business, and private citizen. In 2014, the Office 
of Personnel Management's information security systems, and two 
of the systems used by OPM contractors, were breached by state-
sponsored hackers, compromising the personal information of 
millions of Americans. That same year, hackers released the 
personal information of Sony Pictures executives, embarrassing 
e-mails between Sony Pictures employees, and even copies of 
then-unreleased Sony movies. In 2015, hackers also took control 
of the power grid in western Ukraine and shut off power for 
over 200,000 residents. These three quick examples show the 
varied and widespread effects of cybersecurity breaches.
    So we know the cybersecurity breach that was the genesis 
for this hearing was the WannaCry outbreak. WannaCry ransomware 
infected at least 300,000 computers worldwide, and could have 
been much worse, so I want to thank CEO Neino, head of Kryptos 
Logic, for being wise enough to find an employee who found that 
kill switch, unless you did it yourself. And we're very lucky 
that that was found quickly, and we are fortunate that federal 
systems were resistant to WannaCry. But we know we may not be 
as lucky the next time. We must continue to strengthen our 
cybersecurity posture.
    By the way, in preparing for this, I've learned from our 
wonderful staff that I really need to upload our security 
upgrades every time we get a chance on our personal computers 
and on our smartphones.
    The May 11th Executive Order on strengthening the 
cybersecurity of federal networks seeks to build on the Obama 
Administration's successes in the cybersecurity arena, and I'm 
happy that the Trump Administration--I don't agree with them on 
every topic--but they've taken this next good step. The 
Executive Order calls for a host of actions and a myriad of 
reports on federal cybersecurity from every government agency.
    Simultaneously, the Trump Administration has been slow to 
fill newly vacant positions in nearly every government agency, 
and my concern is that understaffed agencies are going to have 
significant difficulty meeting the dictates of the Executive 
Order. Frankly, I'm also concerned that proposed budget cuts in 
the original Trump-Mulvaney budget across all agencies will 
make the task a lot harder to strengthen the security of 
federal information systems. We've got to make sure that the 
federal government has the resources and staffing to meet the 
need in this vital area.
    The Executive Order also calls for agencies to begin using 
the NIST Framework for cybersecurity efforts, and I'm glad that 
we have NIST here with us today. They play a very important 
role in setting cybersecurity standards that could help thwart 
and impede cyber-attacks.
    You know, NIST is world renowned for its expertise in 
standards development, and federal agencies will be well served 
by using the NIST Framework. On a precautionary note, though, I 
believe some efforts to expand NIST's cybersecurity role beyond 
their current mission and expertise are well intentioned but 
perhaps misplaced. We recently had a debate of H.R. 1224 here, 
the ``NIST Cybersecurity Framework, Assessment, and Auditing 
Act of 2017,'' which gives NIST auditing authority for all 
federal civilian information systems. Currently, this is a 
responsibility of the Inspector Generals at each agency. They 
have the statutory authority, the experience, the expertise. 
They respond directly, responsible to Congress. NIST has no 
such experience or expertise, and I at least remain concerned 
about this proposal, and I'd be interested in any of the expert 
witnesses' thoughts on NIST's role in cybersecurity and 
auditing.
    So I look forward to hearing from all of you today. I 
especially look forward to hearing from our General, the former 
federal CISO, about his experience in these positions and 
thoughts.
    One final note. Bloomberg reported this week that the 
Russian meddling in our electoral system was far worse than 
what's been previously reported. According to the report, 
hackers attempted to delete or alter voter data, accessed 
software designed to be used by poll workers, and, in at least 
one instance, accessed a campaign finance database. These 
efforts didn't need to change individual votes in order to 
influence the election, and we really should take these sorts 
of cyber threats very seriously. I think Vice President Cheney 
called this a war on our democracy.
    So Mr. Chairman, this Committee held more than a half dozen 
hearings on cybersecurity issues during the last Congress, 
including one on protecting the 2016 elections from cyber and 
voting machine attacks, so given what we now know about the 
hacking and meddling in 2016, I hope that this hearing today 
will be a precursor to more hearings on how we can better 
protect our voting systems.
    Mr. Chairman, thank you so much, and I yield back.
    [The prepared statement of Mr. Beyer follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman LaHood. Thank you, Mr. Beyer, for your opening 
statement.
    I now recognize the Vice Chair of the Research and 
Technology Subcommittee, Mr. Abraham, for an opening statement.
    Mr. Abraham. Thank you, Mr. Chairman.
    Over the last few years, we've seen an alarming increase in 
the number and intensity of our cyber-attacks. These attacks by 
cyber criminals and by unfriendly governments have compromised 
the personal information of millions of Americans, jeopardized 
thousands of our businesses and their employees, and threatened 
interruption of critical public services.
    The recent WannaCry ransomware attack demonstrates that 
cyber-attacks are continuing to go from bad to worse. This most 
recent large-scale cyber-attack affected more than one to two 
million systems in more than 190 countries. Nevertheless, it 
appears that the impact could have been much more catastrophic 
considering how fast that ransomware spread.
    And while organizations and individuals within the United 
States were largely unscathed, due in part to a security 
researcher identifying a web-based ``kill switch,'' the 
potential destructiveness of WannaCry warns us to expect 
similar attacks in the future. Before those attacks happen, we 
need to make sure that our information systems are very ready.
    During a Research and Technology Subcommittee hearing 
earlier this year, a witness representing the U.S. Government 
Accountability Office--the GAO--testified, and I quote, ``Over 
the past several years, GAO has made about 2,500 
recommendations to federal agencies to enhance their 
information security programs and controls. As of February 
2017, about 1,000 recommendations had not been implemented.''
    It is clear that the status quo in federal government cyber 
security is a virtual invitation for more cyber-attacks. We 
must take strong steps in order to properly secure our systems 
and databases before another cyber-attack like WannaCry happens 
and puts our government up for ransom.
    On March 1, 2017, this Committee approved H.R. 1224, the 
NIST Cybersecurity Framework, Assessment, and Auditing Act of 
2017, a bill that I introduced as part of my ongoing interest 
over the state of our nation's cybersecurity. This bill takes 
concrete steps to help strengthen federal government 
cybersecurity. The most important steps are encouraging federal 
agencies to adopt the National Institute of Standards and 
Technology's (NIST) Cybersecurity Framework, which is used by 
many private businesses, and directing NIST to initiate 
individual cybersecurity audits of priority federal agencies to 
determine the extent to which each agency is meeting the 
information security standards developed by the Institute. 
NIST's in-house experts develop government-wide technical 
standards and guidelines under the Federal Information Security 
Modernization Act of 2014. And NIST experts also developed, 
through collaborations between government and private sector, 
the Framework for Improving Critical Infrastructure 
Cybersecurity that federal agencies are now required to use 
pursuant to the President's recent Cybersecurity Executive 
Order. I was very pleased to read that language.
    Considering the growing attempts to infiltrate information 
systems, there is an urgent need to assure Americans that all 
federal agencies are doing everything that they can to protect 
government networks and sensitive data. The status quo simply 
is not working. We can't put up with more bureaucratic excuses 
and delays.
    NIST's cyber expertise is a singular asset. We should take 
full advantage of that asset, starting with the very important 
step of annual NIST cyber audits of high priority federal 
agencies.
    As cyber-attacks and cyber criminals continue to evolve and 
become more sophisticated, our government's cyber defenses must 
also adapt in order to protect vital public services and shield 
hundreds of millions of Americans' confidential information.
    We will hear from our witnesses today about lessons learned 
from the WannaCry attack and how the government can bolster the 
security of its systems. We must keep in mind that the next 
cyber-attack is just around the corner, and it could have a far 
greater impact than what we have seen thus far. Our federal 
government--our government systems need to be better protected, 
and that starts with more accountability, responsibility, and 
transparency by federal agencies.
    Thank you, and I look forward to hearing our panel.
    [The prepared statement of Mr. Abraham follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman LaHood. Thank you, Mr. Abraham.
    I now recognize the Ranking Member of the Research and 
Technology Subcommittee, my colleague from Illinois, Mr. 
Lipinski, for an opening statement.
    Mr. Lipinski. Thank you, Chairman LaHood, and I want to 
thank you and Vice Chair Abraham for holding this hearing on 
cybersecurity and lessons learned from the WannaCry ransomware 
attack last month.
    The good news is that U.S. government information systems 
were not negatively impacted by the WannaCry attack. This was a 
clear victory for our cyber defenses. However, I believe there 
are lessons to be learned from successes as well as failures. A 
combination of factors likely contributed to this success, 
including getting rid of most of our outdated Windows operating 
systems, diligently installing security patches, securing 
critical IT assets, and maintaining robust network perimeter 
defenses.
    As we know, Microsoft sent out a security patch for this 
vulnerability in March, two months before the WannaCry attack. 
These and other factors played a role in minimizing damage to 
U.S. businesses as well. However, WannaCry and its impact on 
other countries serves as yet another reminder that we must 
never be complacent in our cybersecurity defenses. The threats 
are ever evolving, and our policies must be robust yet flexible 
enough to allow our defenses to evolve accordingly.
    The Federal Information Security Modernization Act, or 
FISMA, laid out key responsibilities for the security of 
civilian information systems. Under FISMA, DHS and OMB have 
central roles in development and implementation of policies as 
well as in incident tracking and response. NIST develops and 
updates security standards and guidelines both informing and 
responsive to the policies established by OMB. Each agency is 
responsible for its own FISMA compliance, and each Office of 
Inspector General is required to audit its own agency's 
compliance with FISMA on an annual basis. We must continue to 
support agencies in their efforts to be compliant with FISMA 
while conducting careful oversight.
    In 2014, NIST released the Cybersecurity Framework for 
Critical Infrastructure, which is currently being updated to 
Framework Version 1.1. While it is still too early to evaluate 
its full impact, it appears the Framework is being widely used 
across industry sectors.
    Our Committee recently reported out a bipartisan bill, H.R. 
2105, that I was pleased to cosponsor, that would ensure that 
the Cybersecurity Framework is easily usable by our nation's 
small businesses. I hope we can get it to the President's desk 
quickly. In the meantime, the President's recent cybersecurity 
Executive Order directs federal agencies to use the Framework 
to manage their own cybersecurity risk. As we have heard in 
prior hearings, many experts have called for this step, and I 
applaud the Administration for moving ahead.
    I join Mr. Beyer in urging the Administration to fill the 
many vacant positions across our agencies that would be 
responsible for implementing the Framework as well as 
shepherding the myriad reports required by the Executive Order.
    Finally, I will take this opportunity to express my 
disappointment in the Administration's budget proposal for 
NIST. The top-line budget cut of 25 percent was so severe that 
if it were implemented, NIST would have no choice but to reduce 
its cybersecurity efforts. This represents the epitome of 
penny-wise, pound-foolish decision making. NIST is among the 
best of the best when it comes to cybersecurity research and 
standards, and our modest taxpayer investment in their efforts 
helps secure the information systems not just of our federal 
government, but our entire economy. I trust that my colleagues 
will join me in ensuring that NIST receives robust funding in 
the fiscal year 2018 budget and doesn't suffer the drastic cut 
requested by the President.
    Thank you to the expert witnesses for being here this 
morning, and I look forward to your testimony. I yield back.
    [The prepared statement of Mr. Lipinski follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman LaHood. Thank you, Mr. Lipinski.
    At this time I now recognize the Chairman of the full 
Committee, Mr. Smith.
    Chairman Smith. Thank you, Mr. Chairman. I appreciate your 
holding this hearing as well as the Research and Technology 
Subcommittee Vice Chairman sitting next to me, Ralph Abraham, 
for holding the hearing as well.
    In the wake of last month's WannaCry ransomware attack, 
today's hearing is a necessary part of an important 
conversation the federal government must have as we look for 
ways to improve our federal cybersecurity posture. While 
WannaCry failed to compromise federal government systems, it is 
almost certain that outcome was due in part to a measure of 
chance.
    Rather than seeing this outcome as a sign of bulletproof 
cybersecurity defenses, we must instead increase our vigilance 
to better identify constantly evolving cybersecurity threats. 
This is particularly true since many cyber experts predict that 
we will experience an attack similar to WannaCry that is more 
sophisticated in nature, carrying with it an even greater 
possibility of widespread disruption and destruction. Congress 
should not allow cybersecurity to be ignored across government 
agencies.
    I am proud of the work the Committee has accomplished to 
improve the federal government's cybersecurity posture. During 
the last Congress, the Committee conducted investigations into 
the Federal Deposit Insurance Corporation, the Internal Revenue 
Service, and the Office of Personnel Management, as well as 
passed key legislation aimed at providing the government with 
the tools it needs to strengthen its cybersecurity posture.
    President Trump understands the importance of bolstering 
our cybersecurity. He signed a recent Executive Order on 
cybersecurity, which is a vital step towards ensuring the 
federal government is positioned to detect, deter, and defend 
against emerging threats.
    Included in the President's Executive Order is a provision 
mandating that Executive Branch departments and agencies 
implement NIST's Cybersecurity Framework. While continuously 
updating its Cybersecurity Framework, NIST takes into account 
innovative cybersecurity measures from its private-sector 
partners. NIST's collaborative efforts help to ensure that 
those entities that follow the Framework are aware of the most 
pertinent, effective, and cutting-edge cybersecurity measures. 
I strongly believe the President's decision to make NIST's 
Framework mandatory for the federal government will serve to 
strengthen the government's ability to defend its systems 
against advanced cyber threats like with the recent WannaCry 
ransomware attack.
    Similarly, the Committee's NIST Cybersecurity Framework, 
Assessment, and Auditing Act of 2017, sponsored by 
Representative Abraham, draws on findings from the Committee's 
numerous hearings and investigations related to cybersecurity, 
which underscore the immediate need for a rigorous approach to 
protecting U.S. cybersecurity infrastructure and capabilities.
    Like the President's recent Executive Order, this 
legislation promotes federal use of the NIST Cybersecurity 
Framework by providing guidance that agencies may use to 
incorporate the Framework into risk mitigation efforts. 
Additionally, the bill directs NIST to establish a working 
group with the responsibility of developing key metrics for 
federal agencies to use.
    I hope that our discussions here today will highlight 
distinct areas where cybersecurity improvement is necessary, 
while offering recommendations to ensure cybersecurity 
objectives stay at the forefront of our national security 
policy discussions.
    And with that, I'll yield back, Mr. Chairman.
    [The prepared statement of Chairman Smith follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    Chairman LaHood. Thank you, Chairman Smith.
    At this time let me introduce our witnesses here today.
    Our first witness is Mr. Salim Neino, Founder and Chief 
Executive Officer of Kryptos Logic. Mr. Neino is credited with 
discovering new solutions for companies such as IBM, Dell, 
Microsoft, and Avaya. He received his bachelor's degree in 
computer science from California State University at Long 
Beach. A Kryptos Logic employee, as we've discussed, in the 
U.K. is credited with largely stopping the WannaCry attack. 
We'll hear more about that during Mr. Neino's testimony today.
    Our second witness today is Dr. Charles Romine, Director of 
the Information Technology Laboratory at NIST. Dr. Romine 
received both his bachelor's degree in mathematics and his 
Ph.D. in applied mathematics from the University of Virginia.
    Our third witness, Mr. Touhill, is a retired Brigadier 
General in the United States Air Force. He is currently an 
Adjunct Professor of Cybersecurity and Risk Management at 
Carnegie Mellon University. Previously, he was chosen by 
President Obama to serve as the Nation's Chief Information 
Security Officer. Mr. Touhill received his bachelor's degree 
from Penn State University and a master's degree in systems 
management and information systems from the University of 
South--I'm sorry--Southern California.
    And our final witness today is Dr. Hugh Thompson, Chief 
Technology Officer for Symantec. Dr. Thompson also serves as an 
Advisory Board Member for the Anti-Malware Testing Standards 
Organization and on the Editorial Board of IEEE Security and 
Privacy magazine. Dr. Thompson received his bachelor's degree 
and master's degree and Ph.D. in applied mathematics from the 
Florida Institute of Technology.
    We're glad you're all here today and look forward to your 
valuable testimony. I now recognize Dr. Neino for five minutes 
to present his testimony.

                 TESTIMONY OF MR. SALIM NEINO,

                    CHIEF EXECUTIVE OFFICER,

                         KRYPTOS LOGIC

    Mr. Neino. Thank you, Chairman. Chairman LaHood, Vice 
Chairman Abraham, Chairman Smith, Ranking Member Beyer, and 
Ranking Member Lipinski, thank you for the opportunity to 
appear before you today at this joint Subcommittee hearing. We 
greatly appreciate your interest in cybersecurity and look 
forward to sharing our thoughts and perspectives with you and 
your members.
    On May 12, 2017, Kryptos Logic identified a high-velocity, 
high-impact global security threat with the immediate potential 
to cause an immeasurable amount of damage. While the intent of 
this threat was unclear and its motives and origins ambiguous, 
it was immediately evident that its approach was unusually 
reckless. This threat has now popularly become known as 
``WannaCry.'' It was at this time that Marcus Hutchins, our 
Director of Threat Intelligence for Kryptos Logic's Vantage, 
our breach monitoring platform, notified me of our team's 
active monitoring of the developing situation. On this date at 
approximately 10:00 a.m. Eastern time, while investigating the 
code of WannaCry, we identified what looked like an anti-
detection mechanism, which tested for the existence of a 
certain random-looking domain name. Our team proceeded to 
register the domain associated to this mechanism and directed 
it to one of the sinkholes controlled by and hosted on the 
Kryptos Logic network infrastructure. We then noticed and 
confirmed that the propagation of the WannaCry attack had come 
to a standstill because of what we refer to as its kill switch 
having been activated by our domain registration.
    While our efforts effectively stopped the attack, and 
prevented WannaCry from continuing to deploy its ransom 
component, we knew that by then the attack had already 
propagated freely for many hours, at minimum. Based on the 
velocity of the attack, estimated by sampling data we collected 
from our infrastructure currently blocking the attack, we 
believe had that anywhere between 1 to 2 million systems may 
have been affected in the hours prior to activating the kill 
switch, contrary to the widely reported and more conservative 
estimate of 200,000 systems.
    One month after registering the kill-switch domain, we have 
mitigated over 60 million infection attempts. Approximately 7 
million of those in the United States, and we estimate that 
these could have impacted at minimum 10 to 15 million unique 
systems.
    I will note that the largest attack we thwarted and 
measured to date from WannaCry was not on May 12th or 13th when 
the attack started, but began suddenly on June 8th and 9th on a 
well-funded hospital in the east coast of the United States. It 
is very likely the health system is still unaware of the event. 
We measured approximately 275,000 thwarted infection attempts 
within a 2-day period. Another hospital was also hit on May 
30th in another part of the country. A high school in the 
Midwest was just hit at the beginning of June 9th.
    Presumably every system at this location would have had its 
data held hostage if not for Kryptos Logic's kill switch. 
Moreover, Kryptos Logic has been under constant attack by 
unidentified attackers attempting to knock our systems offline, 
thus disabling the kill switch and further propagating the 
attack. The earlier of these attacks came by the well-known 
Mirai botnet which took down large portions of the United 
Kingdom, Germany and parts of the East Coast of the United 
States earlier this year. Despite these attempts, our systems 
remained resilient and we increased counter-intelligence 
measures to mitigate the amplitude of the attacks against us.
    We believe the success of WannaCry illustrates two key 
facts about our nation's systems: Vulnerabilities exist at 
virtually every level of our computer infrastructure, ranging 
from operating systems to browsers, from media players to 
Internet routers. Exploiting and weaponizing such 
vulnerabilities has a surprisingly low entry barrier: anyone 
can join in, including rogue teenagers, nation states, and 
everyone in between.
    So, how do we adapt and overcome/mitigate these weaknesses? 
While many cybersecurity experts who have come before me offer 
the usual gloomy ``there are no silver bullets,'' I've had the 
opportunity to play on both fronts; on offense, via penetration 
testing and red team competitions, and on defense, providing 
protection to Global 100 organizations with very high 
enterprise risks. Our attack responses must be more agile and 
with higher velocity and intensity.
    While the nation has considerable literature on risk, 
maturity models and various frameworks, the actual resources 
for cyber defense are scarce as there simply is not presently 
an adequate level of highly skilled, highly experienced, and 
highly available operators in the cybersecurity field. While 
there is no shortage of good ideas which claim to be able to 
solve an infinite amount of problems, every subsequent idea 
needs development, support, testing, maintenance, et cetera, 
all of which we characterize as developer debt.
    Unfortunately, many of these solutions take too long to 
procure and end up being outdated and essentially useless 
before the ink dries on the paper it is written on. I am 
optimistic, however, that there is a successful path and 
strategy forward. Application and software-level mitigations 
which protect against the exploitation techniques used by 
hackers have moved the needle to protect against exploitation 
of the very fabric on which we build our defense assumptions. 
Mitigations able and incomplete are nonetheless effective and 
have increased the cost of identifying vulnerabilities in 
systems and developing programs to exploit them. Other 
mitigations include various design approaches like 
compartmentalization of data, systems and transmissions. Such 
mitigations have measurably raised the bar required for mass 
exploitation in critical communications software like Internet 
browsers, web servers, and other protocols which are 
fundamental to business continuity.
    Investing in technology doesn't necessarily guarantee any 
actual improvement. In fact, one could argue that introducing 
more technology stack exacerbates the maintenance debt and 
creates immediate monetary loss because there are few metrics 
or analytics to actually measure the effectiveness of any 
particular technology. This is because we are typically years 
behind the attack in terms of the sword and shield battle.
    As these resources ebb and flow, knowledge gaps are created 
and the loss of a domain knowledge specialists who cannot 
immediately fill these gaps and replace them.
    We also must be less risk averse in terms of the defensive 
operations we undertake, more open to failure, and ready to 
adapt and learn from these failures. We need a stronger focus 
on threat modeling and fire-drill simulations that will be 
focused on the events of a magnitude which would cause 
significant damage. A significant response with the WannaCry 
incident was that there was no real guidance or course of 
action that was well communicated. The media focused on the 
points contrary to defense--whodunit?--and this incident could 
have resulted in a complete breakdown of processes had this 
been an unpatched zero-day vulnerability and there was no 
luxury of a kill switch.
    The largest success, though incomplete, was the ability for 
the FBI and the NCSC of the United Kingdom to aggregate and 
disseminate the information Kryptos Logic provided so that 
affected organizations could respond. Information sharing can 
be valuable but our framework can be vastly improved by 
triaging cybersecurity threats and events of magnitude in a 
clear and repeatable scale, not too dissimilar to the Richter 
scale, which measures the energy released in an earthquake. 
Likewise, a scale that takes the technical and social elements 
of a threat into account to evaluate its destructive power 
enables first responders--us--to better organize and mobilize 
focus on the most important areas of risk.
    While there do exist various scoring systems for evaluating 
the purely technical element of a threat, they fall short in 
terms of clear and actionable information outside of 
information technology. We focus too much on application-
specific vulnerabilities with abstruse names like MS17-010, and 
none of these values are effective in quantifying the overall 
impact potential of a wider global environment. We need an 
easier-to-grasp method of prioritizing threats that have a 
large-scale destructive potential in context, like WannaCry.
    To this end, once we have determined a method to evaluate 
the risks with respect to the aforementioned technical and 
contextual specifics, we can do--we can apply the appropriate 
mitigations.
    In conclusion, one of the largest issues is the transitory 
nature of a crisis. This message still has not resonated of the 
destructive potential of these attacks and the importance of 
its awareness. We think this can be explained simply by the 
fact organizations are too slow to adapt to such a volatile 
landscape, there is a vast human resource shortage, and little 
by way of metrics to demonstrate return on investment in 
defensive technologies.
    Again, I thank the Subcommittee for inviting me to appear 
today to discuss Kryptos Logic's involvement in lessons learned 
for WannaCry, and I welcome the opportunity to answer any 
questions you may have when they're fielded.
    [The prepared statement of Mr. Neino follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman LaHood. Thank you, Mr. Neino.
    I now recognize Dr. Romine for five minutes to present his 
testimony.

         TESTIMONY OF DR. CHARLES H. ROMINE, DIRECTOR,

          INFORMATION TECHNOLOGY LABORATORY, NATIONAL

             INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Romine. Chairmen LaHood and Abraham, Chairman Smith, 
Ranking Members Beyer and Lipinski, and members of the 
Subcommittees, thank you for the opportunity to appear before 
you today to discuss NIST's key roles in cybersecurity and how 
they relate to recent incidents.
    In the area of cybersecurity, NIST has worked with federal 
agencies, industry and academic since 1972 starting with the 
development of the Data Encryption Standard when the potential 
commercial benefit of this technology became clear.
    NIST's role to research, develop, and deploy information 
security standards and technology to protect the federal 
government's information systems against threats to the 
confidentiality, integrity, and availability of information and 
services was recently reaffirmed in the Federal Information 
Security Modernization Act of 2014.
    NIST provides resources to assist organizations in 
preventing or, at least, quickly recovering from ransomware 
attacks with trust that the recovered data are accurate, 
complete, and free of malware, and that the recovered system is 
trustworthy and capable. NIST's Guide for Cybersecurity Event 
Recovery provides guidance to help organizations plan and 
prepare for recovery from a cyber event and integrate the 
processes and procedures into their enterprise risk management 
plans. The Guide discusses hypothetical cyber-attack scenarios 
including one focused on ransomware and steps taken to recover 
from the attack.
    Three years ago, NIST issued the Framework for Improving 
Critical Infrastructure Cybersecurity, or the Framework. The 
Framework created through tight collaboration between industry 
and government consists of voluntary standards, guidelines and 
practices to promote the protection of critical infrastructure.
    In the case of WannaCry and similar ransomware, the 
Framework prompts decisions affecting infection by the 
ransomware, propagation of the ransomware, and recovery from 
it. While the Framework does not prescribe a baseline of 
cybersecurity for organizations, for instance, a baseline that 
would have prevented WannaCry, it does prompt a sequence of 
interrelated cybersecurity risk management decisions, which 
should help prevent virus infection and propagation and support 
expeditious response and recovery activities.
    On May 11th, President Trump signed Executive Order 13800, 
strengthening the cybersecurity of federal networks and 
critical infrastructure that mandated federal agencies to use 
the Framework. Under the Executive Order, every federal agency 
or department will need to manage their cybersecurity risk by 
using the framework and provide a risk management report to the 
Director of the Office of Management and Budget and to the 
Secretary of Homeland Security.
    On May 12th, NIST released a draft interagency report, the 
Cybersecurity Framework Implementation Guidance for Federal 
Agencies, which provides guidance on how the Framework can be 
used in the United States Federal Government in conjunction 
with the current and planned suite of NIST security and privacy 
risk management standards, guidelines and practices developed 
in response to the Federal Information Security Management Act, 
as amended, or FISMA.
    Another NIST resource that can assist system administrators 
in protecting against similar future attacks is the most recent 
release of the NIST National Software Reference Library, or 
NSRL. The NSRL provides a collection of software from various 
sources and unique file profiles, which is most often used by 
law enforcement, government, and industry organizations to 
review files on a computer by matching the profiles in the 
system.
    NIST maintains a repository of all known and publicly 
reported IT vulnerabilities such as the one exploited by the 
WannaCry malware. The repository, called the National 
Vulnerability Database, or NVD, is an authoritative source of 
standardized information on security vulnerabilities that NIST 
updates dozens of times daily. NIST analyzes and provides a 
common severity metric to each identified security 
vulnerability.
    NIST recently initiated a project at our National 
Cybersecurity Center of Excellence, or NCCOE, on data integrity 
specifically focused on recovering from cyber-attacks. 
Organizations will be able to use the results of the NCCOE 
research to recover trusted backups, roll back data to a known 
good state, alert administrators when there is a change to a 
critical system, and restore services quickly after a WannaCry-
like cyber-attack.
    NIST is extremely proud of its role in establishing and 
improving the comprehensive set of cybersecurity technical 
solutions, standards, and guidelines to address cyber threats 
in general and ransomware in particular.
    Thank you for the opportunity to testify today on NIST's 
work in cybersecurity and in preventing ransomware attacks. I'd 
be happy to answer any questions that you may have.
    [The prepared statement of Dr. Romine follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman LaHood. Thank you, Dr. Romine.
    I now recognize Mr. Touhill for five minutes to present his 
testimony.

       TESTIMONY OF MR. GREGORY J. TOUHILL, CISSP, CISM;

                 BRIGADIER GENERAL, USAF (RET);

      ADJUNCT PROFESSOR, CYBERSECURITY & RISK MANAGEMENT,

           CARNEGIE MELLON UNIVERSITY, HEINZ COLLEGE

    General Touhill. Thank you. Good morning, Chairman LaHood, 
Chairman Smith, Vice Chairman Abraham, Ranking Member Beyer, 
Ranking Member Lipinski, and members of the Committee. Thank 
you very much for the opportunity to appear today to discuss 
cyber risk management.
    I'm retired Air Force Brigadier General Greg Touhill. I 
currently serve on the faculty of Carnegie Mellon University's 
Heinz College, where I instruct on cybersecurity and risk 
management. Prior to my current appointment, I served as the 
United States Chief Information Security Officer, and before 
that in the United States Department of Homeland Security, 
where I served as the Deputy Assistant Secretary for 
Cybersecurity and Communications. During that period, I also 
served as the Director of the National Cybersecurity and 
Communications Integration Center, which is commonly referred 
to by its acronym, NCCIC.
    During my Air Force career, I served as one of the Air 
Force's first cyberspace operations officers, and I currently 
maintain both the Certified Information Systems Security 
Professional and Certified Information Security Manager 
professional certifications.
    Cybersecurity is a risk management issue. However, many 
people mistakenly view it solely as a technology concern. 
Cybersecurity indeed is a multidisciplinary risk management 
issue and is an essential part of an enterprise risk management 
program.
    I recognize we have a very full agenda of topics today, and 
I'm sensitive to your time. I have submitted for the record a 
written statement, and in that statement, I discuss the recent 
WannaCry attack and my assessment of how future attacks may 
impact the public and private sectors. In short, I view 
WannaCry as a slow-pitched softball whereas the next one may be 
a high-and-tight fastball coming in. We need to be ready.
    I also discuss and share recommendations on topics the 
Committee has identified for today's agenda including the 
President's recent Cybersecurity Executive Order, public and 
private sector partnerships, the Cybersecurity Framework, and 
proposed legislation. In short, on that I urge the Congress to 
continue its great efforts to strengthen our enterprise risk 
posture. I urge you to authorize and empower the federal Chief 
Information Security Officer position, which currently is not 
an authorized or specified position. I also suggest that 
instead of calling it the NIST Cybersecurity Framework--and I'm 
a huge fan of this Framework--I suggest we start calling it the 
National Cybersecurity Framework to reinforce the fact that it 
applies to everyone, and further, NIST did a brilliant job in 
crowdsourcing the development of this framework but it was 
really people from around the country that brought to the table 
best practices. NIST was a great trail boss for this but it 
really is a national cybersecurity framework.
    And then finally, in regards to the proposed H.R. 1224 
legislation, I congratulate the Committee and the Members of 
the Congress for taking the initiative to really reinforce the 
need to implement the Framework across the federal government.
    I do suggest, based upon my experience in both the military 
and the government sectors of the federal government, that we 
do two things with that Act. One is we amend that Act to make 
it apply to national security systems as well. Having served 
extensively in the military and in the federal government, I 
believe that the National Cybersecurity Framework applies 
equally to national security systems, and I recommend that you 
make that amendment. Further, I concur with my colleagues who 
suggest that let's leverage the Inspector General and auditing 
communities that are currently in the different departments and 
agencies and reinforce their need to conduct appropriate audits 
using that Cybersecurity Framework.
    Again, I thank you for inviting me to discuss cyber risk 
management with you today, and I look forward to addressing any 
questions you may have.
    [The prepared statement of General Touhill follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
     
    Chairman LaHood. Thank you, Mr. Touhill.
    I now recognize Dr. Thompson for five minutes to present 
his testimony.

                TESTIMONY OF DR. HUGH THOMPSON,

               CHIEF TECHNOLOGY OFFICER, SYMANTEC

    Mr. Thompson. Good morning. Thanks for having me, and 
Chairman LaHood, Vice Chairman Abraham, Chairman Smith, Ranking 
Member Lipinski, and Ranking Member Beyer, I really appreciate 
the opportunity to be here today to talk about what is a 
critical subject.
    Understanding the current threat environment is essential 
to crafting good policy and effective defenses, and last 
month's WannaCry ransomware attack is just one of the latest 
manifestations of the kinds of disruptive attacks that we are 
now facing.
    The timeline of WannaCry I think has been well covered by 
the other folks on this panel, but I did want to share with you 
a graphical timeline that hopefully you can see in the monitor. 
Apologies for the small print. What's interesting I think about 
that and where I'd like to add some color is to give you 
Symantec's perspective on the events as they unfolded, and to 
give you some context, Symantec is the world's largest 
cybersecurity company with technology protecting over 90 
percent of the Fortune 500 and being used extensively by 
government agencies around the world. In addition, we protect 
tens of millions of home users through our Norton and LifeLock 
branded products.
    The threat telemetry we get from these deployments 
represents the largest civilian threat intelligence network in 
the world. WannaCry was unique and dangerous because of how 
quickly it could spread. It was the first ransomware as a worm 
that had such a rapid global impact. Once on a system, it 
propagated autonomously by exploiting a vulnerability in 
Microsoft Windows. After gaining access to a computer, WannaCry 
installs the ransomware package. This payload works in the same 
fashion as most crypto-ransomware. It finds and encrypts a 
range of files and then displays essentially a ransom note to 
victims demanding payment, this time in Bitcoin. Symantec 
worked closely with the U.S. Government from the first hours of 
the outbreak. We connected DHS researchers with our experts, 
provided indicators of compromise and analysis to DHS, and 
received the same back. During the outbreak, DHS had twice-
daily calls with private sector to coordinate operational 
activities. From our perspective, this was one of the most 
successful public-private collaborations that we've been 
involved in.
    Our analysis of WannaCry revealed that some of the tools 
and infrastructure it used have strong links to a group 
referred to as Lazarus by the security community, which the FBI 
has connected with North Korea. Lazarus was linked to the 
destructive attacks against Sony Pictures in 2014 and also the 
theft of approximately $81 million from the Bangladesh Central 
Bank last year. The links we saw between WannaCry and Lazarus 
included shared code, the reuse of IP addresses, and similar 
code obfuscation techniques. As a result, we believe it is 
highly likely that the Lazarus group was behind the spread of 
WannaCry.
    Beyond WannaCry, the threat landscape continues to evolve 
very quickly. We're seeing attacks become more sophisticated, 
not just in technology but in social engineering approaches 
that these attacks use. We're also seeing more attacks being 
leveraged against IOT devices such as the massive weaponization 
of IOT devices that we saw the Mirai botnet last fall. Mirai 
launched one of the largest distributed denial-of-service 
attacks on record and led to significant disruption of major 
cloud services. The explosive growth of attacks like WannaCry 
and Mirai I think underscores the need for preparation and 
deploying integrated and layered defenses.
    These attacks also show the response and recovery planning 
and tools is an essential part of cyber risk management because 
when good defenses will stop many attacks, we have to be 
prepared that a determined adversary may get through those 
initial defenses and we must lay a foundation for recovery.
    There's no question that WannaCry was an important event 
but unfortunately, it will not be the last of its kind. In 
fact, it's more likely an indicator of what's to come. Good 
fortune played a significant role in minimizing its impact, 
particularly in the United States, but we will not always have 
luck on our side, which is why we must learn the lessons of 
WannaCry and make the necessary improvements to our defenses 
and response capabilities.
    This hearing is an important part of that effort, and we 
appreciate the opportunity to be here. I look forward to 
answering any questions that you may have. Thank you.
    [The prepared statement of Mr. Thompson follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman LaHood. Thank you, Dr. Thompson, and thank all the 
witnesses for your testimony. The Chair recognizes himself for 
five minutes, and we'll begin questioning.
    As I talked about in the beginning, the title of this 
hearing today is ``Lessons Learned from WannaCry,'' and we've 
talked a lot this morning about WannaCry and how that played 
out across the world, but in terms of what we've learned about 
the genesis and origin of where this came from, I know the 
Washington Post came out with an article yesterday that the NSA 
has linked the WannaCry computer worm to North Korea. I'm 
wondering if, Dr. Neino, you can talk a little bit about the 
genesis and origin of where this came from, particularly 
because it appears it's from a nation-state, and I know there's 
references to what occurred with Sony Pictures and also with 
the Bangladesh Bank, and what we know about it and what's being 
implemented I guess on the government side to prevent this or 
hold an entity or the government accountable.
    Mr. Neino. Thank you, Chairman. I think if I understand 
your question, you're asking about, one, the origin, and our 
conjecture to that, and number two, perhaps, if I understood 
also correctly, what would be the rules of engagement for 
something like that if it was another nation-state. While I may 
not be--while we think it's ambiguous to conjecture over the 
origins of WannaCry, there are tails of code in there that 
suggest one way or another that some nation-state could have 
been responsible. Unfortunately, and as I said in my written 
testimony, anyone could have created this level of attack, and 
often misdirection is found typically in binaries like these 
attacks we see. I would compare it perhaps an analogy to 
photoshopping a program to look a certain way or it could have 
simply just been what it is, which is exactly what we see. It's 
hard to tell so we won't--I won't say that I know the origin of 
the attack nor should I conjecture on it but what I can say is 
that these attacks are very difficult to attribute, and Kryptos 
Logic is a cybersecurity company, not an intelligence agency, 
so it would be very difficult for us to pursue an answer to 
that.
    As far as rules of engagement, I also think that the 
question segues the same way. It would be difficult to create 
attribution or origin to any attack and therefore rules of 
engagement would be very difficult for us to give any kind of 
assessment on.
    Chairman LaHood. Dr. Thompson?
    Mr. Thompson. This was truly an interesting attack. We 
spend a lot of time in our research labs looking at both the 
code that was used in WannaCry but also where WannaCry 
communicated out to, and there were very, very close 
similarities to other kinds of attacks that we've seen, 
specifically attacks that we attribute to a group called 
Lazarus, and these attacks, this malware, the reuse of strings 
in that malware, the reuse of command-and-control 
infrastructure out on the internet by that malware led our 
researchers to believe that this is strongly linked to the 
Lazarus group.
    Now, similar to my colleague on the end, we're not the 
intelligence community either, and I agree with those comments 
that attribution is often difficult, but what we've seen leads 
us to believe that it was a part of this Lazarus Group and 
separately the FBI has linked the Lazarus group with North 
Korea, and I think, Chairman LaHood, the article that you're 
referring to from yesterday is another potential evidence point 
on that as well from the NSA.
    Chairman LaHood. Thank you.
    Dr. Neino, we talked about the kill switch and how that 
stopped the attack, but we also reference the fact that last 
week a hospital on the East Coast and a high school were 
subject to attack. Can you explain how if the kill switch was 
implemented correctly, how the hackers responsible for WannaCry 
were able to continue to perpetuate the attack despite the 
registration of the kill switch.
    Mr. Neino. Absolutely. Although I'd like to be a doctor, 
it's Mr. Neino.
    So you have to understand the material makeup of the actual 
malware and how it works. Why WannaCry was so significant is 
that it's self-propagating. That's what gives it the title a 
worm, if you will, meaning the actors don't need to even be in 
existence, and sometimes we refer to these things as zombies, 
zombie botnets, because they continue to proliferate regardless 
of the actors or parents or creators of the particular attack. 
In the case of the examples I gave in the testimony regarding 
the health system, of which there are many, that was just, 
let's say, a corner case that was very significant. The worm 
continues to propagate because it is scanning and seeking to 
expand itself, and that portion of the worm is not subject to 
the kill switch so its expansion and spreading which in effect 
is still exploiting systems worldwide. What it's not triggering 
is the payload, if you will, the ransom component, and that 
component therefore doesn't trigger. Most of these 
organizations worldwide right don't know they're getting 
actively exploited still because it's because they don't see 
the ransom portion of it, so that's why we have 60 million 
attacks thwarted to date, if not more, and just nobody knows 
it's still happening, and that's why I said it was--I don't 
think the message has resonated given those figures that this 
still needs to be patched and this again points to the point of 
resources.
    Chairman LaHood. Thank you, Mr. Neino.
    I'm out of time. I will yield to the Ranking Member, Mr. 
Beyer.
    Mr. Beyer. Thank you, Chairman LaHood, very much, and I'm 
so impressed by our panel today. There's so much information 
here, and I congratulate Dr. Romine and Dr. Thompson for being 
Ph.D. mathematicians. That's wonderful. Jerry McNerney was here 
just a little while ago, a Member of Congress, who's I believe 
our only mathematician in Congress. And Mr. Neino, 
congratulations on winning the hacking tournament. I never had 
a chance to say that before, but that's very cool. And General 
Touhill, it's very cool that you're now after all the things 
you've done in your life, combat and diplomacy and first CISO 
to be up there at Carnegie Mellon with their buggy races around 
Chandlee Park. Every university has something that makes them 
cooler than everyplace else.
    And General, I want to start with you. You talked in your 
long written testimony about H.R. 1224 cosponsored by--a 
bipartisan bill here, but we have expressed a lot of concern 
about the audit function that NIST would be asked to take on, 
and I was particularly fascinated by your points which we 
didn't raise when we had the hearing here that it would make it 
much more difficult for NIST to be viewed as an honest broker 
that this would change their perceptions about the current and 
future roles and have a chilling effect on many of the 
relationships that NIST has within government and industry that 
a lot of these relationships are, quote, unquote, learning 
relationships based on a common quest to identify and 
incorporate best practices, and NIST would change those 
relationships and not in a good way. It might inhibit or stifle 
the free exchange of information from public and private 
entities to NIST. Can you expand on that at all? This seems to 
be a pretty powerful argument against that audit function.
    General Touhill. Yes, sir. You know, frankly, I'm a fan of 
the intent of the legislation. Section 20(a) in making sure 
that folks are in fact using the Cybersecurity Framework across 
federal government I think is brilliant. We need to follow 
through on that big time, and frankly, it was something I was 
promoting while I was the United States Chief Information 
Security Officer. As a matter of fact, in my last federal Chief 
Information Security Officer Council meeting in January of this 
year, I proposed and we had a unanimous vote amongst the 
council to do a risk assessment for the federal government 
based on the Framework. That portion of the legislation I'm 
wholly supportive of.
    Section 20(b), the proposal to do the auditing and 
compliance activities, I'm also a fan of. I think it's 
important that we do auditing and compliance. However, I do 
stand by what I wrote in the written testimony that I think 
that NIST is not the best place to put that. It doesn't have 
the culture, it doesn't have the mission, it doesn't have the 
personnel to do it as effectively as the existing Inspector 
General and auditing functions. And from a practical 
standpoint, NIST is a great organization that I've been working 
with for the last 35-plus years, and the relationships that 
NIST has is in fact as a neutral party that is on the quest to 
choreograph efforts to find the best ways of doing things. An 
auditing function or a compliance function on the other hand is 
looking to see if you are in fact following the checklist. I 
think that if we want to have an auditing and compliance 
function, which I definitely think that we should be doing, we 
should be giving direction to those folks whose job it is to do 
that auditing and compliance function. Frankly, this is an 
operational issue, and Inspector Generals have always been in 
my book the folks that do performance inspections, that are the 
ones that are going to help those commanders in the field in 
the military as well as the executives in the federal 
government do their job better and have better visibility into 
their risk posture. I believe we need to have the Inspector 
Generals and auditing functions that are currently in place be 
the ones who execute the intent of the Committee and the 
Congress.
    Mr. Beyer. Thank you, General, very much.
    Mr. Neino, based on your testimony, you should be a doctor. 
It's filled with really interesting things, and your three-part 
conclusion that the largest issues were A, that organizations 
are too slow to adapt; B, that we have a vast human resource 
shortage; and C, there are little by way of metrics to 
demonstrate return on investment, and you talk about creating a 
method to prioritize threats, something like the Richter Scale, 
magnitude and a clear and repeatable scale. Who should put this 
together? Who should manage it? Who should maintain it? How do 
we make this happen?
    Mr. Neino. I think it would be interesting to see NIST 
participation in something of this where it's basically 
crowdsourced through various academics and commercial and 
private entities that could look together and see how they're 
prioritizing risks and threats, and then see if that could be 
in some way put into some sort of simulation system that allows 
to be scalable where people as a resource is not scalable, 
technology can be, and that would be an effective area.
    I also see that the commercial sector alone can produce 
that as well and that could be adopted, but I think that any 
time you have some sort of regulatory mandate, it's taken much 
more seriously, and what I mean by that is, for instance, if we 
had an event of magnitude that was measured and if we put an 
arbitrary number on WannaCry, let's say it was a 7.5 magnitude 
by some arbitrary figure, shouldn't that particular event be 
required to be fixed by organizations whereas right now it's 
mostly voluntarily. So if a water system or a power grid 
doesn't fix it even after WannaCry, shouldn't we see that sort 
of mandate where we can know that that is regulated because 
that event of magnitude has context versus you can't boil the 
ocean when it comes to patching vulnerabilities. We're not 
going to win that war; it's infinite. But we should be able to 
win the war of at least the attacks we know about.
    Mr. Beyer. Thank you very much.
    Mr. Chair, I yield back.
    Chairman LaHood. Thank you, Mr. Beyer.
    I now recognize Vice Chairman Abraham.
    Mr. Abraham. Thank you, Mr. Chairman. I also stand in awe 
of the brain cell power on our panel. We could probably use a 
couple of guys as mathematicians when we work through our 
budget process.
    And Dr. Thompson, if indeed North Korea has a role in this 
virus exploitation, I find it ironic that a country as North 
Korea that not only suppresses but quashes religious freedom 
would use a biblical name, Lazarus, as its codename, so just an 
aside.
    Dr. Romine, my question is to you. When news of WannaCry 
started spreading, what, if any, steps did NIST take to ensure 
federal agencies information systems were protected and was 
NIST involved in any government meeting that took place around 
that time?
    Dr. Romine. Thank you very much for the question. The 
response for an event like WannaCry from the NIST perspective, 
the primary goal as a scientific institution and as an 
institution that provides guidance is to learn as much as we 
can about the incident and about the origin--not the origin 
from a country point of view but the technical origins, and to 
determine whether the guidance that we issue is sufficiently 
robust to help organizations prevent this kind of attack.
    I'm not aware of specific meetings that we were involved in 
that were discussing the operational side of WannaCry. I think 
the law enforcement and intelligence communities were certainly 
meeting. You heard reference to DHS being quite active in 
helping the private sector to deal with this issue. From our 
perspective, it's more learning whether we can improve the 
guidance that we make available to entities to try to not only 
prevent these attacks but also recover from them and to be 
prepared for them in the future.
    Mr. Abraham. Okay. And I'll stay with you for my second 
question. In your testimony, which I did read, you said that 
NIST recommendations in the NIST guide for the cybersecurity 
event recovery and Cybersecurity Framework would sufficiently 
address the WannaCry incidents. Will the requirement in the 
cyber Executive Order to agencies to implement the Framework 
help them be better prepared in the future to defend against 
these types of incidences and will this be enough or should 
more be done?
    Dr. Romine. Thanks for the question. It's difficult to know 
whether it will be enough for the next event, but I can say 
this. One of the important things that emerged in our 
discussions with the private sector during the development of 
the Framework was that we are often thinking about detection 
and prevention of attacks. Sometimes, we don't pay enough 
attention to response and recovery, and so one of the things 
that the Framework does is to spell out the five functions--
identify, protect, detect, respond and recover--and we're 
providing a lot of guidance now with the incident response 
guidance, for example, to help different organizations be 
better prepared to respond and recover. One of the analogies 
that I've drawn recently is the Boy and Girl Scouts are right: 
their motto is ``be prepared.'' And the fact is, the better 
prepared an organization is through its risk management 
activities, which we think the risk management framework from 
FISMA coupled with for federal agencies and under the umbrella 
of the Cybersecurity Framework now, we think those are the 
tools that are necessary to implement the kind of preparedness 
that organizations should have.
    Mr. Abraham. One quick follow-up. What specific steps in 
lieu of this WannaCry should NIST take to help federal and 
state agencies be better prepared as well as the private 
sector?
    Dr. Romine. So we're already looking at some of the 
consequences associated with it, some of the incident response 
work that we have, some of the data integrity work that I 
talked about earlier. We launched the Data Integrity Project at 
the National Cybersecurity Center of Excellence, which has a 
very strong tie-in with ransomware-type attacks. We launched 
that actually before the WannaCry came out but in light of this 
new event, we're accelerating the work that's going on in the 
NCCOE so we hope to be able to provide very practical guidance 
or practical examples of how to be prepared so that 
organizations can see how it's done.
    Mr. Abraham. Thank you.
    And General, thank you for your service to the country.
    Mr. Chairman, I yield back.
    Chairman LaHood. Thank you, Vice Chairman Abraham.
    I now recognize Ranking Member Lipinski for his 
questioning.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank the 
witnesses for their testimony and for all the work that you do.
    We are I think finally beginning to take cybersecurity more 
seriously here in Washington although there's much more that I 
think we need to do. Part of the problem is understanding what 
this really means and the impact that it can have. We also need 
to make sure that the American public knows the significance of 
cybersecurity and what could happen.
    We know when we're dealing with cybersecurity that 
technology is just part of the solution. What often matters 
more is we saw with WannaCry is personal behavior and 
organizational behavior. Individuals and information systems 
managers must regularly install security patches and phase out 
outdated software. Organizations must prioritize cybersecurity 
and have plans in place for quick response when there are 
attacks. These are social-science issues.
    Another social-science angle is understanding criminal and 
terror networks as well as foreign state actors, and using that 
understanding to help inform our intelligence gathering and our 
cyber defenses.
    So I'd like to hear from each of our witnesses your 
thoughts on whether we're investing enough in the human factors 
of cybersecurity and what more can be done, what more would you 
like to see us do to--so that we are taking care of these 
issues? We'll start with Mr. Neino.
    Mr. Neino. Thank you, Mr. Lipinski. I think it's a great 
point that you bring up. There are other issues other than 
technology at play. Cybersecurity is hard. It really is. 
Software is hard; security is hard. When you put them together, 
it's very hard. One thing that we know will be quite difficult 
is resources. Resources will maintain their need for quite some 
time, and technology is rapidly evolving. We have eroding 
boundaries. Systems are changing. We have digital 
transformation that continuously happens so we have to relearn 
our resources and people. This makes it very difficult for 
those responsible in those areas to manage risk to actually 
keep up with the actual threat, the pragmatic threat, not just 
the way we measure our own threats but in reality like 
WannaCry. In that case, I think that we could see a huge value 
if we were to see investments in things that allow for threat 
prioritization, again going back to the events of magnitude 
example. You can't boil the ocean but you can look at the areas 
that can hurt you the most and the people that will hurt you 
the most, and investigating those things and putting them 
together allows you to start to formulate a picture that allows 
you to prioritize threats. Once you prioritize threats, the 
investments you make in those people and those resources will 
be maximized and we'll have a better chance of being more 
resilient.
    Mr. Lipinski. Thank you.
    Dr. Romine?
    Dr. Romine. I'd like to describe two important NIST 
programs that directly address the human part of this problem. 
One is that NIST is privileged to home the program office for 
the National Initiative for Cybersecurity Education, or NICE, 
which is an interagency program that's dedicated to building a 
larger cybersecurity workforce, and we've made great strides in 
that area. I'm very proud of the work that we've done there.
    The second part of the program is, and you're absolutely 
right, that one of the key components in achieving true 
security is understanding how humans interact with technology. 
You can be theoretically secure through technology but if the 
people that are trying to get their jobs done are focused on 
that and not taking advantage of, or in some cases, even 
circumventing security that's in place in order to get their 
jobs done, you have to know about that and you have to 
understand how to build systems that have the human in the 
loop. NIST views a systems-level approach for cybersecurity but 
we think people, the users, are part of the system and so we 
have an active research program in understanding. We have 
psychologists, sociologists, human factors engineers on our 
staff whose entire mission is to understand how people interact 
with technology so that we can do better in areas like security 
and usability.
    Mr. Lipinski. General Touhill?
    General Touhill. Thank you very much. When I was at--still 
in public service as the U.S. Chief Information Security 
Officer, I applied about five strategic lines of effort. One 
was harden the workforce; two, treat information as an asset; 
three, do the right things the right way and at the right time; 
four, make sure that you're continuously innovating and 
investing wisely; and then five; make sure that you're making 
risk management decisions at the right level.
    The first one was harden the workforce. If you gave me an 
extra dollar in cybersecurity, I'm always going to spend it on 
people, and frankly, your people are your greatest resource but 
they're also your weakest link. We see it time and time again, 
and 95 percent of the incidents my U.S. ICS, Industry Control 
System CERTs responded to you could track back to a human 
failure--failure to patch, failure to configure correctly, 
failure to read the instruction book. So I think hardening the 
workforce should be a strategic priority, and it was one of my 
top ones and actually was the top one.
    Further, you know, if you ask for where else could we 
invest well: exercises. People should not necessarily be 
confronting crises without having practiced ahead of time, and 
my friend, Admiral Thad Allen, likes to say the time to 
exchange business cards is not a time of crisis. We should be 
doing exercises more often than we are, and we should be 
investing more into them.
    And then further, everybody needs to play. Too often we see 
senior executives who go dismiss that off to the younger folks 
and the kids in the server room to play. It's a risk issue, and 
risk decisions are made at the board level.
    So I think we need to invest in exercises. We already are 
doing a lot. During the time I was at DHS when I first got 
there, the year before we had done 44. By the time I left two 
years later, we were up to 270 exercises. But I think more 
needs to be done, and I encourage the Committee and the 
Congress to help reward these type of practices because I think 
it'll buy down our risk.
    Mr. Lipinski. And if the Chairman will indulge me, Dr. 
Thompson?
    Mr. Thompson. Thank you. Thanks for that question because I 
think what you're hitting on is probably one of the most 
important and underinvested areas in cybersecurity in general. 
This human element cannot be separated from the technology. 
Often in the security community we talk about advanced 
persistent threats, and most people when they think about that 
think about very sophisticated code, malware, but in fact, what 
we're seeing is the root of many of these advanced persistent 
threats is the initial way a company got infected or a person 
got infected was that an individual made in retrospect a bad 
choice--they clicked on a link, they downloaded a file--and 
we're seeing attackers becoming more socially sophisticated in 
the way they attack. We're seeing them personalize attacks 
looking for information on social networking sites, for 
example, so that they can create credibility in an email or a 
text message that they may send you so that you're convinced 
that this is a reasonable thing to go and do. And I think from 
an industry perspective, it is a place that we desperately need 
focus.
    I want to give you one data point that I think may be 
useful. So I've had the pleasure to serve as the program 
committee chairman for RSA Conference for the past ten years. 
That conference had 40,000 people, security professionals that 
showed up last year, which is a sign of how important I think 
this industry's become, and three years ago we started a track 
called the Human Element, and it has become one of the most 
popular tracks for cybersecurity professionals because I think 
we all realize--and I love the comments that the general made 
about this topic. I think we all realize that is one of the 
most critical areas that we need to focus on going forward, 
human element of the people that are responsible for 
cybersecurity but also the human element of users.
    And I'll make a final comment here. It is very easy for a 
user to understand that there's an increase in utility. I know 
it's easier to get in my house if I leave the door unlocked, 
very easy. You don't have to carry any keys around. If I make 
it more secure, generally people's viewpoint is you make it 
more secure, you make it more painful. There are more things 
that you have to do. So they can easily measure utility but 
they can't easily measure risk, and we need to do a better job 
at helping the individual, the citizen recognize risk.
    Mr. Lipinski. Thank you very much.
    Chairman LaHood. Thank you, Mr. Lipinski.
    I now recognize Congressman Higgins for his questions.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Neino, congratulations on shutting down WannaCry. That 
was a big mistake by whoever designed that worm, was it not, to 
leave the domain unregistered?
    Mr. Neino. It's hard to say what it is. It could have been 
intentional, it could have been non-intentional. We think it 
was non-intentional but it's hard to say. But it definitely was 
a mistake in any regard.
    Mr. Higgins. Well, congratulations on discovering it. What 
would WannaCry had done to the world had that kill switch not 
been----
    Mr. Neino. I can only give a thumbnail of what that might 
look like but given today, you know, we're seeing millions of 
thwarted attacks per day, you also have to realize that the 
velocity of the attack of WannaCry had slowed significantly as 
a result of the kill switch. So generally mathematicians will 
say these are exponential attacks, things like that. This could 
have been a very, very massive attack. Most systems were 
affected.
    Mr. Higgins. I concur. Most cyber experts agree that it 
appears that North Korea was behind WannaCry. Do you agree?
    Mr. Neino. I think that there are tails in the software 
program that you could use to associate it but I do believe 
that intelligence is cumulative behind cyber. Cyber is very 
difficult to attribute. You need other areas to attribute a----
    Mr. Higgins. What's your opinion? Was North Korea behind 
WannaCry?
    Mr. Neino. I don't really want to comment. I've seen other 
people make very good conjectures about it being China. I've 
seen other conjectures as of just being random people. But I 
don't think it's worth commenting because I'm just not a 
subject domain expert in intelligence.
    Mr. Higgins. Intelligence is a safe answer, sir.
    When security software is designed, how easy is it for the 
designer to build a backdoor access that would be virtually 
undetectable within that cybersecurity software?
    Mr. Neino. We've seen that a multitude of times, and 
there's very good studies from a variety of areas. The level of 
entry to do that is very low.
    Mr. Higgins. Thank you for concluding that.
    Brigadier General, my question is to you, sir. Thank you 
for your service. Are you familiar with Kaspersky Labs out of 
Moscow?
    General Touhill. I am familiar with Kaspersky.
    Mr. Higgins. Manufacturer of cybersecurity products, a long 
list of cybersecurity products, that top intelligence officials 
at the FBI, the CIA, the NSA and others advise this body that 
they don't trust Kaspersky, that they would not use their 
product on their personal devices. However, it's still used 
widely across the United States Government in various 
departments. Can you explain that to this Committee?
    General Touhill. Well, sir, I don't know what kind of 
conversation, you know, my colleagues from those agencies had 
with this Committee. However, as I go and I take a look at the 
different products that are in the market today, I believe that 
the American products are the best ones out there, and just on 
a value proposition, I buy American.
    Mr. Higgins. I concur. That's a brigadier general speaking 
right there.
    General Touhill. That's an American speaking, sir.
    Mr. Higgins. Let me say that although there's no public 
evidence of collusion between Kaspersky Labs and the Russian 
government, it's not a large leap, and Eugene Kaspersky has 
suggested that his products have no ties to the Russian 
government. However, as part of the national conversation, Mr. 
Chairman, and it's widely known that the Russians have been 
involved in efforts to influence governments across the world 
with cyber-attack, and Mr. Kaspersky has suggested that he 
would testify before this body. I strongly suggest that we take 
him up on his offer. I'd sure like to talk to him regarding the 
kill switch in North Korea, that having been a rather glaring 
error on the part of the designer of that worm cyber-attack.
    Mr. Neino, what do you think that happened to that guy in 
North Korea? It was a kill switch, wasn't it? So this message, 
should it get to any of the cyber-attack cyber experts in North 
Korea, if you can get out of the country, you're welcome in the 
West. We'd love to have you before this Committee. We'll give 
you some real good food.
    Mr. Chairman, I yield back.
    Chairman LaHood. Thank you, Congressman Higgins.
    I now yield to Congresswoman Esty.
    Ms. Esty. Thank you very much. This has been very 
enlightening and extremely helpful.
    There are a couple of points I want to return to and maybe 
drill down on. One is on the human element, which I think is 
unbelievably important because you can buy all the great 
equipment in the world, and as you said, Dr. Thompson, if you 
leave the door open, it doesn't do you any good, and I think a 
little bit about the analogy in hospitals about getting people 
used to washing their hands, and it may be low-tech but it 
works, and so one of the things I think we need to emphasize 
for all Americans is hygiene. It's just what are proper hygiene 
practices, so that's one, and getting people's thoughts and how 
we make that absolutely standard operating procedure for all 
organizations, government and non-government.
    Number two, we have an issue in the federal government in 
particular at all levels of government of really old systems. 
So we look at the fact that this was exploiting a 
vulnerabilities in Windows. Who's still using those systems? 
Overwhelmingly I can tell you it's local and state governments 
that don't have any money and they're still using these old 
systems, so that makes it an even greater issue.
    Mr. Neino, your point about threat assessment and 
understanding levels of assessment, we need triage help. You 
know, we need triage help to recognize what defcon level is 
this because, you know, everybody gets those notes on their 
phones and we're looking at our phones like I don't have time 
to upgrade my system, and that's the reality of human behavior. 
So I'd suggest a couple of things. We ought to be getting 
behavioral economists and social-media experts to your point, 
Dr. Thompson, and I think that needs to be part of what the 
federal government, part of what NIST is doing is to stay ahead 
of the game we need to do that.
    A number of us were at an Aspen briefing a couple of months 
ago with some of the folks from the top levels of the private 
sector talking about how so much of our emphasis at the federal 
government has been and frankly the incentives have been for us 
to be on attack mode. We're developing our attack cyber 
capability out of the federal government. We've left it to the 
private sector to do defense. Obviously we need to be doing 
more defense. So that's--you know, how do we incentivize 
defense attention? It's less sexy but frankly a lot more 
important. So what can we do as a culture change? Where does 
that have to come out of? Is that out of NIST? Is that out of 
DOD, NSA to put the incentives there? How do we make sure we're 
getting the broader sector of talent pool.
    Again, it may not strike people bringing in, you know, 
people who do Snapchat for figuring out how do we make sure 
people don't click on that link but it strikes me over and over 
again if we don't do that, if we look at what happened in the 
hacking on the electoral system and last year what happened, it 
was John Podesta's email where someone clicked on a link, and 
it is going to be the weakest link and the strongest link at 
the same time.
    So anyone who has thoughts on that whole bunch of stuff I 
just dumped, that's what happens when you're at the end of the 
hearing, you know, you're batting clean-up and want to raise a 
number of issues. But again, thank you very much. I look 
forward to following with all of you, and thank you for your 
efforts and in joining with us in figuring out how we can do 
better for America. Thanks.
    Dr. Romine. Thank you, Congresswoman. I'll just make two 
very quick points. One is, we have active research going on now 
under the program that I just talked about to understand human 
behavior, trying to understand susceptibility to phishing 
attacks, and what are the things that factor into people not 
recognizing that something is a phishing attack. And so there's 
research coming out about that.
    With regard to culture change, I think maybe it's 
underappreciated sometimes the culture change that's going on 
in boardrooms and among CEOs who in light of the Framework as a 
catalyst for this but I think this might have been on their 
radar anyway, but the Framework is a means of catalyzing the 
understanding on the part of boardrooms and CEOs that manage 
risk to reputation, financial risk, and business operational 
risk and all of the other risks that you're already managing as 
a CEO, you now have the tools that you can use to incorporate 
cybersecurity risk into that entire risk management.
    General Touhill. I'd like to pile onto that. First of all, 
on the cyber hygiene, we all need to do better, and we work 
very closely with NIST to help promote the national cyber 
education programs that we have, and I think we really need to 
do better on that. As a matter of fact, I propose that we 
probably need a Woodsy Owl, Smokay the Bear type of thing. You 
know, I call it Byte. Let's get kids out there fully educated 
and bring that pipeline up. And we've been working with NIST 
and across the interagency to do that.
    And we also need to incentivize. We shouldn't necessarily 
be seen as the government that's here to help but not really 
help but to overregulate. We need to encourage and incentivize 
folks to do the right thing, to buy down their enterprise risk. 
But we also have to recognize that risk is an intrinsic part of 
any management of any business, and we have to be very careful 
that we don't have hamshackle the different boards and C suites 
from actually managing their risk, and we need to give them the 
tools and the support to be good wingmen to help them make 
those risk decisions.
    And then finally, you know, we've had a lot of discussions 
publicly in this town over the last two, three, four years 
about roles and missions as to who does what in helping folks. 
As for me, having served in uniform for over 30 years and then 
having done some public service on top of that, I think it 
really takes teamwork, and I view the DOD and NSA and 
intelligence community's mission to help us with deterrence and 
interdiction. Let's stop them and take the fight to the bad 
guys out to foreign shores. But when it comes to protecting 
hometown America, I believe that that's more appropriate for 
DHS and the work that's being currently done in the NCCIC to 
choreograph different activities across the federal government 
in better serving the citizens.
    Mr. Thompson. Just a quick comment. First, I support the 
General's suggest that we resurrect Smokay the Bear. I think it 
would be great to see him again and maybe kind of repurpose him 
for this effort. But I will say first, Congresswoman, thank you 
so much for your comments. I very much agree with what you said 
about this human element. I can tell you that the practice of 
security I think is changing very much because of that, and I 
think about the folks that we hire at Symantec as an example. 
The kinds of folks that are hunting down the malicious networks 
today aren't just the computer scientists and mathematicians 
but there are computational linguists, there are behavioral 
psychologists, there are anthropologists. There are people that 
are looking at the human behavior of an attack group, so that's 
one side.
    On the consumer side, which we sell to with Norton, we 
spend an amazing amount of time thinking about how do we make 
security similar to the iPad, and I call it the iPad because 
it's the only piece of technology I think I've ever given to my 
mom and I didn't have to give her any instruction about how to 
use it. She just understood it. And we spend a massive amount 
of time now today on design. How do we make it intuitive? How 
do we make it easier to be more secure than less secure? And I 
think that is where a lot of effort must go in in the security 
community today. How do we make it easier to be more secure 
than less secure?
    Chairman LaHood. Thank you, Congresswoman Esty.
    I was just thinking as you referenced Smokay the Bear, 
maybe a new company, Smokay the Bear Malware would be 
something----
    Mr. Thompson. We'll register the domain, Mr. Chairman.
    Chairman LaHood. Thank you.
    I now recognize Mr. Palmer for his questions.
    Mr. Palmer. Mr. Neino, first, accept our thanks for the 
quick thinking that allowed the kill switch to prevent so many 
infections, but with regard to your measurements, however, you 
suggest that the number of 200,000 infections is too low, and 
that before the implementation of the kill switch, there may 
have been 1 to 2 million infections. In that regard, how do you 
then explain that practically no one tried to pay the ransom if 
there were that many more?
    Mr. Neino. I think there were some who tried to pay the 
ransom be it the measure of success of that is hard to 
determine. I think we also----
    Mr. Palmer. Well, what you've got is that from many studies 
that a large portion of the companies do pay the ransoms when 
their computers are encrypted, but monitoring the Bitcoin 
wallets advertised in the WannaCry malware, it seems that less 
than 500 people did, so that's two one-hundredths of 1 percent.
    Mr. Neino. Sure. Well, I think----
    Mr. Palmer. That's very inconsistent with your----
    Mr. Neino. Yeah, I think----
    Mr. Palmer. --with what you're saying.
    Mr. Neino. I think that when you look at--it's hard to 
associate the payments to the actual spread, and I'll tell you 
for a variety of reasons. One, when you look at the actual 
attack and the magnitude of the attack and you try to trace it 
to the payment, if you look at the mechanisms to make the 
payment, it was, one, not clear whether you would get your 
systems back anyways, and at this point the attacks have been 
abandoned, so we know that if you pay the ransom, you didn't go 
anywhere. Most of the media and many of the experts were 
suggesting not to pay the attack. We were asked the same 
question and we said you would have to base your own risk 
organization and determine if you should pay the attack. 
However, what I can say is the data that we are receiving is 
absolute. When we get this data--we've been doing this. It's 
not just WannaCry. We've been doing this for close to a decade. 
We see and visibly analyze data that comes in. It is accurate.
    Mr. Palmer. I'd like to address this question to General 
Touhill, and again, as many of our members have said, thank you 
for your service, sir.
    Your testimony refers to people who were infected by 
running Windows 95 but published industry reports are saying 
that almost everyone that was infected was running Windows 7. 
So isn't it true that the main reason people were infected was 
because an intelligence community vulnerability was leaked to 
the public? Turn on your mic, please.
    General Touhill. Thanks. Sir, thanks for the question. You 
know, just for clarity's sake, the--in my written testimony I 
highlighted Windows 95 as being used as an exemplar. However, 
there was plenty of other different operating systems that were 
very susceptible to this type of attack including Windows ME, 
7, you know, a lot of unpatched systems.
    Mr. Palmer. But I'm asking about an intelligence community 
vulnerability that was leaked to the public.
    General Touhill. I think that if we take a look at it from 
that standpoint, yeah, I'm very concerned about that, and I 
think that this highlights a couple of things. First of all, 
patch your systems. We've been telling you all along to do 
that. Second of all, I think that as we take a look at, you 
know, the leakage of information or the attribution of leakage 
of information, that's very serious and unacceptable.
    Mr. Palmer. Well, in regard to the patch, the reality is 
that a team of actors calling themselves shadow brokers 
published an NSA exploit called EternalBlue on the Internet, 
and that happened in January 2017, and Microsoft released a 
patch that addressed that vulnerability 3 months later in 
March, a patch called MS17-010, so it was not a problem of 
machines being out of date. The problem was that if you hadn't 
put all of the Microsoft recommended patches on all the 
machines within 60 days, you would become a victim, and it was 
a zero-day attack because when EternalBlue code was released in 
January, there was no way to protect a computer from it.
    General Touhill. I don't believe I would characterize this 
one necessarily as a full-zero-day attack. From my perch, you 
know, frankly, because the fact that we had some patches that 
had been put out, and Microsoft went through extraordinary 
measures, by the way, to go out and create those patches for 
operating systems that had previously been declared 
unsupportable many years before, and I use Windows 95 in my 
written testimony as an exemplar because Windows 95 had been 
online for about 19 years before it was retired, and for the 
last three years, Microsoft had not been supporting it, and 
then for them to come back and put out that patch in March was 
extraordinary, and through the federal government and other 
organizations around the world, we went out and we clearly 
communicated, and Carnegie Mellon's C-CERT was one of them, 
clearly communicated to all of the communities of interest, 
patch your systems, this is an important patch, and it was 
labeled as a critical patch, sir.
    Mr. Palmer. If I may, I have one more question for Mr. 
Thompson. Could you address the double pulsar feature that you 
mentioned? Since no one was actually paying the ransoms, it is 
possible that the real goal of the attack was to allow remote 
access to the machines that the double pulsar was installed on 
by becoming infected?
    Mr. Thompson. Thanks for your question. It's difficult to 
anticipate what the true intention was of this attack, whether 
it was ransomware, whether it was a test, whether it was the 
ability to propagate some kind of back door, but what is, I 
think, interesting as a characteristic of the attack, which I 
think goes back to your first question of why didn't we see, 
quote, normal or expected rates of ransomware payment. The 
backend infrastructure that was set up was very weak compared 
to the typical piece of ransomware that we see out there in the 
wild, and it is pretty incredible. Many of these ransomware 
attacks have a very robust infrastructure behind them. They 
have almost the equivalent of customer support for people that 
have been infected with the ransomware. We didn't see that 
level of sophistication here in the back end.
    Mr. Palmer. I thank the witnesses for their answers. I 
yield back.
    Chairman LaHood. Thank you, Mr. Palmer.
    I now yield to Congressman Webster for his questions.
    Mr. Webster. Thank you, Mr. Chairman. Thank for you having 
this meeting, a joint meeting, and thank each of you for 
coming, but I'll tell you, my mind has been on something else, 
and the statements that were given here were similar to that in 
that they fit. There was an attack yesterday, and I thought 
about how the fact it was an advanced, persistent threat, and 
not only that, was it a personalized attack, and there's some 
people, in fact, my seatmate here, who acted heroically to turn 
it around, and so I just--that's what was on my mind, these 
Capitol Police whose service protected life yesterday along 
with the heroic acts of many of the Members of this Congress. 
Maybe it's a different kind of threat but it was real, and in 
this particular case, there was no human error, and so I just--
I wanted to take this time that I have, just a few minutes, and 
say thank you for our people who work there and for the members 
who serve here who prove there still are heroes in our country 
and they just haven't been exposed yet, and there was some 
yesterday that were exposed, so thank you, Mr. Chairman. I 
yield back.
    Chairman LaHood. Thank you. I think we have a couple more 
questions. We're going to go just for a short second round 
here. I'll yield myself five minutes.
    Dr. Romine, you note in your written testimony that the 
National Vulnerability Database, NVD, that NIST maintains and 
``updates dozens of times daily'' of all known and publicly 
reported IT vulnerabilities documented that vulnerability that 
the WannaCry malware exploited. A recent report notes that 75 
percent of the vulnerabilities documented last year were 
disclosed elsewhere first and that it takes on average 7 days 
between the discovery of a vulnerability and its reporting on 
the NVD. What is the reason for the delay there if you could 
talk about that, and is NIST working to get rid of that lag 
time?
    Dr. Romine. Thank you for the question. We're always 
interested in trying to shorten time to deliver really 
important information to our stakeholders. In the case of NVD, 
our goal is not first to disclose or first to disseminate the--
although we want to do as early as we can. Our real goal is 
accurate curation, including an assessment of the impact that a 
vulnerability might have, and that assessment requires a 
certain amount of analysis that has to be done before we can 
include something in the National Vulnerability Database.
    The other reason for that is that the disclosures are often 
from sources that are not necessarily reliable from our 
perspective, and including information about vulnerabilities 
from sources that we don't view as authoritative would not be 
in our best interest for the NVD.
    Chairman LaHood. And was there a delay in reporting the 
vulnerability that the WannaCry malware exploited?
    Dr. Romine. I don't know the exact duration between the 
time that we received the report and the time that we put it in 
the NVD. I'm sure it was a matter of days.
    Chairman LaHood. Thank you. Those are all my questions.
    I yield to Mr. Beyer.
    Mr. Beyer. Thank you, Chairman, very much.
    General, you are the first Chief Information Security 
Officer, and you took that position, I guess, last September 
under the Obama Administration?
    General Touhill. Yes, sir.
    Mr. Beyer. Do you believe the federal government should 
have this federal CISO position? I know the Trump 
Administration hasn't filled it yet, but do you--any reason why 
you left at the time that you did, and any concerns about 
whether it will be refilled?
    General Touhill. Well, first of all, thank you for the 
question. I believe that this is a best practice to have a 
Chief Information Security Officer in different organizations. 
The first Chief Information Security Officer position was 
created in the private sector over 20 years ago, and it took 
about 20 years for the federal government to create one. I 
think it is critically important as part of an enterprise risk 
management approach that you do in fact have someone who is 
focused on information security and the risk to the enterprise 
and advising the corporate community as it were up, down and 
across as far as what those risks are and best practices to buy 
down and manage that risk. Within the federal government, we 
still don't have an authorization for a federal Chief 
Information Security Officer in statute. My position was 
appointed as an administrative appointment, and I think that as 
we take a look at--as we move forward--and the Executive Order 
that just recently came out is a great step forward. I think we 
need to firm up and make sure that this position is an enduring 
position but we also need to authorize and empower the position 
such that Chief Information Security Officer can in fact have 
the authorities to choreograph and direct activities that are 
necessary to better manage our risk.
    As far as the appointment goes, I look forward to seeing 
who the Administration brings forward, and I will coach and 
serve as wingman for that person.
    Mr. Beyer. Great. While we're talking Executive Orders, you 
made the really interesting case that we overclassify, that the 
default position right now is to make everything the highest 
thing, and that we should instead make the default position the 
lower level of classification and argue our way up. How do we 
operationalize that? Is this Executive Order, legislation, 
memorandum of understanding?
    General Touhill. I thank you for that question. I'm very 
passionate about it because I was responsible for public and 
private sector partnerships while I was at DHS and the 
information sharing between the public sector and the private 
sector, and frankly, we overclassify too much time-sensitive 
information in the federal government, in my view, and I 
believe that the solution set is going to have to be a 
combination of legislation as well as executive action. So I 
think that really both branches of government are going to need 
to partner up as far as--to determine a best means of getting 
information out faster to folks so that we can timely and 
actionable actions in this fast-paced cyber environment.
    Mr. Beyer. Thank you.
    Mr. Neino, you had one very intriguing, or many intriguing 
lines in your testimony. One said that ``points contrary to 
defense (who did it)'' and what I understood from that is we 
spent too much time trying to figure out who is Lazarus or who 
is Bayrob rather than defend ourselves. Can you expand on that? 
Because I confess, as a naturally curious person who watches 
Law and Order and CSI and all the stuff, I want to know who did 
it.
    Mr. Neino. I think that the barrier of entry at this point 
is that anyone could do it, so conjecturing over who has done 
it is a very difficult task because cybersecurity is something 
that could be easily misdirected. You never really know who the 
attack is, and focusing on that doesn't solve the problem that 
we're vulnerable. We are vulnerable. So if you leave the door 
open, there could be thousands of people that walk by your 
house every day. Would it really matter if it's because you 
leave yourself exposed who has done it? They do it because they 
can, and we should not make it that way. We should make it so 
that we are resilient and we are a very strong nation in 
regards to defense.
    Mr. Beyer. Thank you.
    Dr. Thompson, do you want to pile on at all?
    Mr. Thompson. I do. Thank you. You know, it's interesting. 
We don't spend very much time looking at who did it and who is 
the country behind it, who is the enterprise behind it, who is 
the person behind it, but it's very critical for us to 
associate patterns of behavior. So if we associate attack A 
with attack B and then believe that these two things are 
connected, it will let us learn more about that group, the 
tactics that they use, and make is better prepared to protect 
against a new attack sight unseen, and that was the case with 
Symantec's AV engines and our artificial intelligence engines 
because of previous training on this against the WannaCry 
malware. So it's critical for us to have that grouping together 
and we'll leave it up to the intelligence community to decide 
who that group actually belongs to.
    Mr. Beyer. Great. Thank you very much, Mr. Chair.
    Chairman LaHood. Mr. Lipinski, do you have any follow-up 
questions?
    Mr. Lipinski. No, I think I took plenty of time on my first 
round. I thank the witnesses for your testimony, all the work. 
As I said, I'm sure we'll be continuing this discussion, so 
thank you.
    Chairman LaHood. In closing, I want to thank all of the 
witnesses here today for your important, insightful and 
impactful testimony here today, and as our two Subcommittees 
look at legislation and public policy as it relates to 
cybersecurity and the ancillary issues of national security, 
economic vulnerabilities, privacy, we look forward to 
continuing to work with you on those issues and appreciate you 
taking time out of your busy schedule to be here today.
    And the record will remain open for two weeks for 
additional written comments and written questions from Members, 
and at this time the hearing is adjourned.
    [Whereupon, at 11:51 a.m., the Subcommittees were 
adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
</pre></body></html>
